           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  SOCIAL SECURITY ADMINISTRATION
   CONTROLS OVER THE TAXATION
    AND SUSPENSION OF PAYMENTS
     TO FOREIGN BENEFICIARIES

     March 2004   A-14-03-23005




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                            SOCIAL SECURITY
MEMORANDUM
Date:   March 3, 2004                                                                     Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Social Security Administration Controls over the Taxation and Suspension of Payments
        to Foreign Beneficiaries (A-14-03-23005)


        OBJECTIVE

        The objective of our audit was to determine how effectively the Social Security
        Administration (SSA) deducts taxes and stops payments to certain beneficiaries living
        outside the United States (U.S.). To achieve our objective, we examined the process
        and data that SSA relies on to control payments to non-resident beneficiaries.

        BACKGROUND
        According to the 1983 amendments to the Social Security Act,1 SSA must, under certain
        conditions, withhold benefit payments to non-citizens when they leave the U.S. for
        6 consecutive months. Additionally, payments cannot be made to beneficiaries residing
        in certain countries (see Appendix E). All beneficiaries leaving the U.S. for more than
        6 months must file a form with SSA providing certain residency and citizenship
        information. If the required information is not received, SSA suspends benefits
        beginning with the seventh month after the beneficiary’s departure.

        The 1983 amendments to the Social Security Act require SSA to withhold taxes2 from
        the monthly benefit payments of certain non-citizens living outside the U.S. Taxes are
        not withheld from qualifying beneficiaries if certain circumstances exist. For instance,
        taxes are not deducted if beneficiaries reside in a country where the U. S. has a tax
        treaty forbidding taxation of benefits by the U. S. From January 1994 through June
        2002, SSA withheld approximately $1.3 billion in taxes3 from the benefits of non-citizens
        who are not a legal resident of the U.S., or not living in 1 of the 11 countries that have a
        tax treaty with the U.S. (see Appendix D). Non-citizen beneficiaries with legal resident
        status are considered valid “resident aliens” and must show proof of their current status

        1
            Public Law 107-5, Social Security Act, section 202(t).

        2
         The 1983 amendments set a 30 percent tax rate on 50 percent of the monthly benefit amount, which
        was increased in 1995 to 85 percent of the monthly benefit amount.
        3
            Our audit universe consisted of approximately 5.9 percent of the $1.3 billion in taxes withheld by SSA.
Page 2 – The Commissioner

to prevent tax withholding. SSA is required to inform them that they need to file all
forms required by the Internal Revenue Service (IRS) and pay IRS any money owed.

SCOPE AND METHODOLOGY

To help determine how effectively SSA deducts taxes and stops payment to foreign
beneficiaries living outside the U.S., we analyzed 4,864 Master Beneficiary Records
(MBR) whose beneficiaries had a foreign mailing address or non-citizen information,
and country of citizenship was shown as unknown. We sampled and reviewed
53 records where the beneficiary’s mailing address did not match his or her non-citizen
information on the MBR, and 163 records where there was no discrepancy between
address and non-citizen information. We projected monetary results based on our
sample records to the population (see Appendix C for details).

Our audit work was performed in Baltimore, Maryland, between April 2002 and
June 2003, and conducted in accordance with generally accepted government auditing
standards. We determined the data used in the report was sufficiently reliable given the
audit objective and intended use of the data, and did not lead to incorrect or
unintentional conclusions. Since we found problems with the data that SSA relies on to
control payments to non-resident beneficiaries, the problems are discussed as part of
our audit findings in a section of the report entitled Electronic Data Used to Determine
Payments to Nonresidents.

RESULTS OF AUDIT

As summarized in Table I, SSA has not consistently applied alien tax withholding
provisions as required by law4 or its own policy,5 nor has it withheld benefits from certain
non-resident beneficiaries as required by Agency guidelines. In addition, SSA has not
obtained or kept required documentation in cases where it does not withhold taxes from
resident aliens who live outside the country. This lack of documentation offers little
assurance that resident aliens are aware of their obligation to file tax returns with the
IRS and pay any taxes due.

For approximately 28 percent of the cases that we reviewed, SSA had not obtained or
kept required documentation to verify the tax status or tax benefit eligibility of
non-residents. Moreover, SSA did not adhere to its own policy and stop payments
when the required documentation was not returned.6 Finally, the electronic data that
SSA relies on in determining whether to pay non-resident beneficiaries is unreliable.
Overall, we found that additional controls are needed over the non-resident alien
payment process. The control weaknesses resulted in errors to the Social Security
Trust Fund of approximately $112 million since 1984.

4
    26 United States Code (U.S.C.) § 1441(a) (2003).
5
 SSA Program Operations Manual System (POMS) GN 05010.001.B; POMS SM 00618.800E.2.
(TN 49 10-86).
6
    SSA Form SSA-21, Supplement To Claim Of Person Outside The United States.
  Page 3 – The Commissioner


           Table I - Errors in Applying Alien Withholding Tax Provisions
                     or Paying Benefits to Non-citizens Living Abroad



       Type of Error                                                Estimated
                                   Number of         Percentage                        Estimated Dollar
         Category                                                   Number of
                                  Beneficiaries7      of Error                         Amount of Error8
                                                                   Beneficiaries

Overpayments to
Beneficiaries Residing                     5           2.3%              1,980             $57,069,720
Abroad
Aliens Taxes Required,
                                          22           10.2%             8,700             $31,535,980
Not Withheld
No Proof of Resident
                                           6           2.8%              2,360             $11,623,960
Alien Status
Alien Taxes Not
                                          52           24.1%           20,580               $8,152,140
Withheld Retroactively
Alien Taxes Not
                                           9           4.2%              3,560              $3,777,120
Required, Withheld
Total                                                                                     $112,158,920

  OVERPAYMENTS TO BENEFICIARIES NOT ELIGIBLE FOR BENEFITS

  We found that personnel responsible for managing payments to beneficiaries residing
  outside the U.S. do not always follow SSA policy and procedures. According to SSA
  policy, individuals eligible for benefits as a survivor or dependent cannot receive
  payments unless they meet additional requirements such as maintaining the required
  relationship for a minimum of 5 years while living in the U.S.9 We found five cases in
  our sample where beneficiaries did not meet the stricter eligibility requirements. In all
  five cases, SSA had not complied with its policy to stop benefits. We estimate that,
  since 1984, SSA has overpaid $57.1 million to ineligible beneficiaries (see Table 1).




  7
   Errors found in the four sample categories are not mutually exclusive. Sample cases may belong in
  more than one error category.
  8
      See Appendix C for statistical calculations.
  9
   SSA Publication No. 05-10137, ICN 480085, Social Security – Your Payments While Outside the
  United States, June 2001, Part 3-B.
Page 4 – The Commissioner

ALIEN TAXES REQUIRED NOT WITHHELD

In 22 of the 216 sample cases we reviewed, SSA should have withheld alien taxes but
did not. In 8 of the 22 cases, SSA did not withhold the correct amount of alien taxes.
Furthermore, in another 8 cases, SSA showed foreign beneficiaries residing in the U.S.
or a country having a tax treaty with the U.S. when they resided in non-tax treaty
countries. SSA did not withhold required alien taxes in the 6 remaining cases for
various reasons such as delaying case development for an inordinate amount of time.
Since 1984, if SSA had obtained required residency and citizenship information, or used
available information correctly, it would have withheld an estimated $31.5 million in alien
taxes (see Table 1).

NO PROOF OF RESIDENT ALIEN STATUS

Under the Internal Revenue Code (IRC)10 and SSA policy,11 individuals classified as
resident aliens by the Bureau of Citizenship and Immigration Services12 can reside
outside the U.S. without having taxes withheld from their Social Security benefits. To
qualify for this exclusion, the beneficiaries must provide SSA with proof of resident alien
status.
We found no documentation establishing U.S. resident alien status for six beneficiaries
in our sample and therefore taxes were not withheld. Since 1984, we estimate that SSA
has not obtained or retained documentation to support withholding $11.6 million in taxes
from benefit payments to beneficiaries claiming resident alien status (see
Table 1).

ALIEN TAXES NOT WITHHELD RETROACTIVELY

In 52 of the 216 sample cases we reviewed, SSA had not applied the alien tax
withholding provision as required by IRC.13 Moreover, SSA’s policy14 of not withholding
taxes retroactively conflicts with the IRC, which requires payment of all taxes due for
qualifying beneficiaries. The IRC states that a beneficiary’s residency status for the
month payment is made determines whether alien taxes are withheld15. SSA policy
instructs personnel not to withhold taxes “…for past periods if benefits have already
been paid and it is later discovered that taxes should have been withheld from those


10
     26 U.S.C. § 1441(a) (2003).
11
     SSA POMS GN 05010.030.C.
12
     Formerly the Immigration and Naturalization Service.
13
     26 U.S.C. § 1441(a) (2003).
14
     SSA POMS SM 00618.800E.2 (SSA recently deleted this operation procedure from its POMS).
15
     SSA POMS GN 05010.001.B.
Page 5 – The Commissioner

benefits.”16 By not complying with the IRC, SSA policy has prevented staff from
withholding an estimated $8.2 million in alien taxes since 1984 (see Table 1).
In a 1988 Office of the Inspector General report entitled Collection of Nonresident Alien
Taxes for Retroactive Periods, SSA was advised to develop automated procedures to
help collect retroactive taxes from non-resident aliens. Although SSA agreed with the
recommendation and started planning new procedures, we believe SSA should first
change its current policy that prohibits retroactive collections. A policy change would
allow SSA staff to collect taxes for retroactive periods using the same procedures it now
uses for overpaid benefit amounts. Also, SSA would then be in compliance with existing
legislation.

ALIEN TAXES NOT REQUIRED BUT WITHHELD

We also found nine sample cases where SSA withheld taxes from beneficiaries
unnecessarily. SSA records substantiated that four of the nine beneficiaries should
have been exempt from tax withholding because they were either a U.S. citizen,
resident alien or residing in a tax treaty country. In addition, in five of the nine cases,
SSA simply miscalculated and withheld more tax than necessary. Because SSA did not
accurately update the alien information on these records, we estimate that it has, since
1984, withheld almost $3.8 million in taxes unnecessarily (see Table 1).

REQUIRED DOCUMENTATION FOR NON-RESIDENT BENEFICIARIES

Documenting the payment status of non-resident beneficiaries is a manual,
labor-intensive process susceptible to error. SSA requires beneficiaries, who plan to
reside outside the U.S., to complete, sign and return a form designed to capture enough
residency and citizenship information for SSA to determine whether payments should
stop or taxes withheld. When beneficiaries leave the U.S. before notifying SSA or
providing the required information, SSA mails a blank form to the non-residents asking
them to complete and return the form. Occasionally, because of distance, poor
telephone service and language barriers, non-residents seek the Department of State’s
assistance to complete and return the form. When a completed form is returned, SSA
manually associates it with the beneficiary claims folder, reviews it and, if necessary,
uses information on the form to adjust the payment amount.

Evidence indicates that SSA employees have only limited success when they manually
retrieve and analyze a non-resident’s mailed documentation. We did not find the
residency and citizenship information form in 25 of our 116 sample claims folders where
the residency form was required. Because the form was missing, SSA did not have the
information needed to determine the non-resident beneficiary’s tax status and/or
continuing eligibility. Although SSA policy requires employees to stop payments when
this critical information is not provided, we found that payments continued in 13 of the
25 cases where none of the forms were in the claims folder.




16
     See id.
Page 6 – The Commissioner

ELECTRONIC DATA USED TO DETERMINE PAYMENTS TO NON-RESIDENTS

We found incorrect, missing or discrepant data on the Alien Information line of the MBR
for our non-resident beneficiary sample cases. This data had not been updated with
information provided by the beneficiary or other reliable sources.

Based on our sample, we estimate that 85,460 MBR records contain an unknown
country of citizenship, most of the time unnecessarily (see Appendix C for details). For
example, while MBRs for 216 sample cases showed the country of citizenship as
unknown, we were able to use evidence available in the claims folder to determine the
correct country of citizenship for 163 of the 216 cases. According to SSA policy,
country of citizenship is an element in determining a non-resident’s benefit.

Furthermore, MBR data fields regarding tax-withholding status should never conflict with
other MBR data fields such as address or zip code. In 934 of the 4,273 cases in our
sample universe, alien information on the MBR either showed that a beneficiary with a
U.S. mailing address was living outside the U.S., or that a beneficiary with a foreign
mailing address was living in the U.S. In most of these cases, SSA had simply not
updated the alien information on the MBR when the beneficiary left or re-entered the
U.S.

CONCLUSIONS AND RECOMMENDATIONS
SSA’s policies17 and lack of sufficient oversight in managing payments to non-resident
beneficiaries have resulted in errors to the Social Security Trust Fund of an estimated
$112 million. They have also weakened the integrity of residency and citizenship
information on SSA records and resulted in noncompliance with Federal law.18

In our audit, we examined 4,273 records where beneficiaries had alien information on
the MBR but the latest country of citizenship was shown as unknown and the
beneficiaries received payment after 1984. Because the country of citizenship is crucial
in deciding whether to pay foreign beneficiaries, we considered these high-risk cases.
We did not review, however, nearly 68,000 records that have the same data
characteristics (i.e., the same data discrepancies) except for a known country of
citizenship. Based on the results of our review, we believe that the same type of
problems found in the smaller, high-risk population may also exist for the larger
population. SSA not only used the same controls for both non-resident beneficiary
populations, but it applied law and policy in the same manner for both groups.
Consequently, we believe that there may be additional costs to the Trust Fund as a
result of weak controls and SSA’s non-compliance with law and policy.

Based on our audit findings, we believe SSA should change its retroactive tax
withholding policy to ensure compliance with the IRC. In addition, SSA should design
sufficient controls to ensure that its staff obtains the documentation needed to exempt
17
     SSA POMS GN 05010.001.B; POMS SM 00618.800E.2.
18
     26 U.S.C. § 1441(a) (2003). Public Law 107-5, Social Security Act, section 202(t).
Page 7 – The Commissioner

non-resident beneficiaries from taxes, or retrieve and process the basic residency and
citizenship information required for beneficiaries living outside the U.S. Procedures
designed to have staff suspend payments if required documentation is not received
within 7 months depend on manual action and are often ignored. As a result, over
16 percent of the time, SSA does not establish the proper tax withholding status and
pay benefits correctly.

SSA’s current process for managing benefit payments to non-residents needs
automation. SSA should attempt to reduce its ongoing dependence on manual controls
over this process, as they are too prone to error. The Agency should consider
expanding its current applications for collecting residency and citizenship information
from non-resident beneficiaries.19 Information provided by non-resident beneficiaries
could be electronically transmitted to SSA mainframe computers to be stored and
processed by the same mainframe software programs that currently process the
information. SSA should also consider the use of existing Paperless Process software
controls to help ensure that payments stop if documentation is not received within
7 months, and the information that is received is reviewed on-line by SSA staff before
being processed by current production software systems.

We believe SSA should modify its current MBR software programs to ensure that alien
information keyed into the MBR does not use unknown data codes or information that
conflicts with other data fields on the MBR. For instance, SSA should consider using
future Title II redesign efforts to prevent the MBR from showing country of citizenship as
unknown, or allowing tax withholding status codes to conflict with other MBR data fields
such as address. Incorporating the modifications into a planned redesign effort would
reduce the cost of making the corrections. The use of electronic forms would reduce
the number of times employees would have to manually associate, control and process
paper forms.

To prevent further loss of revenue and maintain integrity of its databases, we
recommend SSA:

1. Identify cases and recover funds where errors were made in applying alien
   withholding tax provisions or paying benefits to non-citizens living abroad.

2. Evaluate policies and operating procedures regarding retroactive alien taxes due to
   determine if any changes are needed to comply with Public Laws and regulations.

3. Establish policy and procedures to ensure that each beneficiary either pays required
   taxes or submits missing documentation.

4. Periodically review a statistically valid sample of data input transactions that update
   the alien information line on the MBR to ensure staff adherence to Agency policy
   and procedures.



19
     The development of a similar application included a reasonable cost estimate of $540,000.
Page 8 – The Commissioner

5. Consider establishing a software application to collect residency and citizenship
   information from non-resident beneficiaries, and then transmit alien information
   electronically for processing.

6. Use existing software applications to help ensure that payments to non-resident
   beneficiaries are suspended if required documentation is not received in accordance
   with SSA policy.

7. Consider software changes that would prevent updates to alien information on the
   MBR if the update conflicts with other MBR data fields, or if key data fields like
   country of citizenship are blank or shown as unknown.

AGENCY COMMENTS AND OIG RESPONSE
SSA substantially agreed with five of our seven recommendations. The Agency
disagreed with recommendation 2 and referred to a 1983 White Paper that presented
an SSA component’s explanation of the alien taxation law. The White Paper asserts
that collecting past due taxes is an IRS responsibility and that SSA, when not informed
of alien status changes, would primarily maintain a record of alien taxes due and inform
the beneficiary and IRS of the liability. In January 1984, IRS responded in writing to the
White Paper. It stated that, according to law, SSA is liable for the tax for retroactive
periods if alien status changes and SSA is not notified of the change. Based on the
information provided by SSA, we could not determine whether or not SSA and IRS ever
reached an agreement on this issue. Additionally, in response to a 1988 OIG report
(see page 5 for details), SSA agreed to start planning automated procedures to help
identify and facilitate collection of retroactive non-resident alien taxes due. To date, the
recommendation has not been fully implemented. We did, however, modify
recommendation 2 to take into consideration SSA’s concerns. We believe that SSA
needs to clarify its responsibility to IRS in the alien taxation process, and ensure that
taxes due are collected as required by law.

While SSA concurred with recommendation 5 and considered a software application to
collect SSA-21 information, it disagreed with the recommendation’s objective. SSA
does not consider the SSA-21 a self-help form and believes that an interview with an
SSA representative is necessary. We agree that beneficiaries should complete the
SSA-21 with SSA assistance, but encourage the Agency to consider automation as a
way to improve controls over a particularly manual, error-prone process.
Page 9 – The Commissioner

SSA also provided Technical comments, which we incorporated in the report as
appropriate (see Appendix B for the full text of SSA comments). We also agree with
additional comments provided by SSA. To clarify the structure of our report, the first
section deals with alien nonpayment issues, the next four sections address nonresident
tax issues, and the final two sections discuss procedural weaknesses.




                                        James G. Huse, Jr.
                                                  Appendices
APPENDIX A - Acronyms

APPENDIX B - Scope and Sampling Methodology

APPENDIX C - Results of Applying Alien Withholding Tax Provisions

APPENDIX D - Countries Having a Tax Treaty with the United States

APPENDIX E - Countries Where Payment Is Prohibited

APPENDIX F - Agency Comments

APPENDIX G - OIG Contacts and Staff Acknowledgments
                                              Appendix A

Acronyms
IRC        Internal Revenue Code

IRS        Internal Revenue Service

MBR        Master Beneficiary Record

POMS       Program Operations Manual System

SSA        Social Security Administration

U.S.C.     United States Code
                                                                      Appendix B

Scope and Sampling Methodology
To help determine how effectively the Social Security Administration (SSA) deducts
taxes and stops payment to foreign beneficiaries living outside the United States (U.S.),
we identified 5 percent of the Master Beneficiary Record (MBR) and we identified and
copied 72,582 records where beneficiaries had a foreign mailing address or non-citizen
information. From this universe, we identified 4,864 records where the latest country of
citizenship was shown as unknown and used 4,273 of the 4,864 records as our sample
population. The 591 records not included in our sample population were for
beneficiaries terminated prior to when the1984 foreign benefit withholding legislation
went into effect. Our sample population included records where the beneficiary was
currently receiving payment, payment had been temporarily suspended or deferred, or
payment had been terminated after 1984.

From the sample population, we randomly selected a total of 216 records. We sampled
and reviewed 53 records where the beneficiary’s mailing address did not match his or
her non-citizen information on the MBR, and 163 records where there was no
discrepancy between address and non-citizen information. We projected monetary
losses found in our sample records to the sample population.

To determine whether SSA had complied with laws, regulations, and its own policies
and procedures in determining when to withhold taxes from beneficiaries living outside
the U.S., and in calculating the correct amount to withhold, we obtained and analyzed
claim folders for our sample cases.

We requested claim folders for our 216 sample cases but were unable to obtain folders
for 75 cases; 22 of which had been destroyed. For 73 of the 75 missing folder cases,
we used electronic records to determine whether SSA complied with the Internal
Revenue Code (IRC) and its own policy in paying benefits. Information was not
available to allow us to determine SSA’s compliance with IRC or its own policies in the
remaining 2 cases.

We also obtained and reviewed additional payment and enumeration information for our
216 sample cases. This information came from SSA’s MBR, NUMIDENT file, and
Payment History Update System.

We also:

•   Reviewed applicable laws and regulations as well as SSA policies and procedures
    concerning the process and data that SSA relies on to control payments to non-
    resident beneficiaries; and

•   Discussed our findings and evidence with SSA staff responsible for managing
    payments to non-resident beneficiaries.
                                                                                         Appendix C

    Results of Applying Alien Withholding Tax
    Provisions and Paying Benefits to Non-Citizens
    Living Abroad
                                                                                      Projection for Complete
                           Sample Results                Point Estimate
                                                                                          MBR Segments*
                        Number1        Dollars       Number           Dollars         Number        Dollars
Overpayments to
Beneficiaries                   5     $144,328            99         $2,853,486         1,980     $57,069,720
Residing Abroad
Alien Taxes
Required, Not                 22       $79,912           435         $1,576,799         8,700     $31,535,980
Withheld
No Proof Of
Alien Resident                  6      $29,461           118          $581,198          2,360     $11,623,960
Status
Taxes Not
Withheld                      52       $20,588         1,029          $407,607         20,580      $8,152,140
Retroactively
Alien Taxes Over
                                9       $9,538           178          $188,856          3,560      $3,777,120
Withheld
No Decisions                    2                         40                             800
No Tax
Withholding                  116                       2,294                           45,880
Obligation
Taxes Correctly
                              88      $599,652         1,742        $11,863,816        34,840    $237,276,320
Withheld

    Note: All projections are at the 90-percent confidence level.

    *
        Multiplied point estimate for 1 segment by 20 to obtain projection to entire MBR.




    1
        Does not total 216 cases since some cases fell into more then one category.
                                                                       Appendix D

Countries Having a Tax Treaty With the U.S.
The following countries have a treaty with the U.S. either agreeing to no taxation or a
lower rate of taxation on Social Security benefit payments by the U.S.

9 Canada

9 Egypt

9 Germany

9 Ireland

9 Israel

9 Italy

9 Japan

9 Romania

9 Switzerland

9 United Kingdom (defined as England, Scotland, Wales, and Northern Ireland)

9 India (to extent benefits are based on Federal, State or local government
  employment)
                                                                         Appendix E

Countries Where Payment is Prohibited
The United States (U.S.) Treasury Foreign Assets Control Regulations and Cuban
Assets Control Regulations1 prohibit the delivery of all U.S. Government checks,
including Social Security benefit checks, to, or on the behalf of, beneficiaries residing in
the following two countries:

      North Korea

      Cuba



Because the following countries cannot guarantee safe delivery of Social Security
benefit checks, the Social Security Administration has restricted benefit payment to
beneficiaries in the following countries:2



         Azerbaijan                          Moldova

         Belarus                             Tajikistan

         Cambodia                            Turkmenistan

         Georgia                             Ukraine

         Kazakhstan                          Uzbekistan

         Kyrgyzstan                          Vietnam




1
    Treasury Circular 655; SSA POMS GN 02605.470; RS 02650.001.
2
    SSA POMS VB 01503.600.B.
                  Appendix F

Agency Comments
                              SOCIAL SECURITY

MEMORANDUM                                                               32256-24-967


Date:      January 21, 2004                                     Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report, "Social Security Administration
            Controls Over the Taxation and Suspension of Payments to Foreign Beneficiaries"
            (A-14-03-23005)--INFORMATION


We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
content and recommendations are attached.

Please let me know if you have any questions. Staff inquiries may be directed to
Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

Attachment:
SSA Response




                                          F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT “SOCIAL SECURITY ADMINISTRATION CONTROLS OVER THE
TAXATION AND SUSPENSION OF PAYMENTS TO FOREIGN BENEFICIARIES”
(AUDIT NO. A-14-03-23005)


We appreciate the opportunity to review and comment on the draft report, and agree with most of
the content and recommendations.

We recommend that the final report use the term “nonresident alien” to correctly reflect statute
and regulations. Also, we found the report difficult to follow because of the inconsistent use of
terms relating to residence and the lack of clear delineation between nonresident alien taxation
issues and alien nonpayment issues. For example, terms such as “non-resident” or “non-resident
beneficiary” are used when referring to both issues implying that the definition of “resident” for
both issues is the same. It is not. Residency is not relevant for alien nonpayment issues, except
for dependent aliens to meet a 5-year residency test to receive benefits outside the United States.
For example, an alien who has been granted and maintains lawfully admitted status for
permanent residence while outside the United States could be exempt from alien taxation but
subject to alien nonpayment suspension after 6 months. For this reason, we recommend that this
final report be divided into two sections; one that deals with alien taxation issues and one dealing
with alien nonpayment issues. Also, each section should define the term “resident” as it was
applied to the findings contained in the report.

Finally, in several places, the report refers to provisions of law as “SSA policy,” thereby
implying that the Agency has discretion in applying the “policy.” For example, page six of the
report contains the following sentence, “According to SSA policy, country of citizenship is an
element in determining a non-resident’s benefit.” The report should clarify these instances to
avoid the implication that the Agency has discretion in applying the law. Also, citizenship is not
an element in determining a nonresident’s benefit; it is a factor in determining whether a benefit
can be paid to someone outside the United States.

Our responses to the specific recommendations are provided below, and we have included
technical comments that should be made to enhance the accuracy of the report.

Recommendation 1

SSA should identify cases and recover funds where errors were made in applying alien
withholding tax provisions or paying benefits to non-citizens living abroad.

Response

We agree. We should identify and recover funds in cases involving administrative error in
applying the provision or, where upon receipt of information, an action was not taken timely.
However, we do not agree to recover funds in cases where we were not advised of resident to
non-resident changes on a timely basis as explained in recommendation 2.



                                              F-2
Recommendation 2

SSA should change its policy to ensure that alien taxes are withheld retroactively according to
law.

Response

We disagree. SSA determines whether alien tax provisions apply based on the person’s status at
the time payment is made. This is consistent with the Internal Revenue Service’s (IRS)
regulations as the taxing authority. For example, if an alien is awarded benefits on a retroactive
basis, his or her status during the retroactive period would not be material; it is the status at the
time payment is made that determines whether withholding applies.

A separate issue arises when the status of an alien beneficiary (in current pay) changes from a
resident to a nonresident and SSA is not informed timely. In a 1983 White Paper sent to the IRS,
we stated that we would advise the beneficiary of the apparent liability, however, collection of
past due taxes in these situations is the IRS’s responsibility. This is analogous to the situation
where SSA is not informed when a beneficiary’s status changes from a nonresident to a resident
and we continued to withhold taxes. In those cases, it is also the responsibility of the IRS to
refund any incorrectly withheld taxes.

Recommendation 3

SSA should establish policy and procedures to ensure that each beneficiary either pays required
taxes or submits missing documentation.

Response

We agree. We currently have policies and procedures in place regarding alien taxation and alien
non-payment of benefits for all beneficiaries residing both in and outside of the United States.
We will continue to update those policies and procedures if and when changes take place. We
will also send reminders in the form of Operations Bulletins to address OIG’s concerns regarding
staff errors in erroneously withholding taxes, and the lack of documentation for alien non-
payment and overpayments, as shown in Appendix C of the report, “Results of Applying Alien
Withholding Tax Provisions.” Finally, topics of future reminders will be determined based on
the results of ongoing reviews that are conducted under the Office of Central Operations’ (OCO)
Operational Quality Assurance Reviews.

Recommendation 4

SSA should periodically review a statistically valid sample of data input transactions that update
the alien information line on the Master Beneficiary Record to ensure staff adherence to Agency
policy and procedures.




                                               F-3
Response

We agree. We have implemented an internal review which is contained in OCO’s Quality
Assurance Plan, effective January 2004. The review covers various workloads in the Office of
Disability Operations and the Office of International Operations. Also planned in 2004 is a
study on alien non-payment and a study on alien taxation of foreign beneficiaries. The alien
information line on the MBR will be the controlling factor in order to randomly select cases for
review.

Recommendation 5

SSA should consider establishing a web-based software application to collect residency and
citizenship information from non-resident beneficiaries, and then transmit alien information
electronically for processing.

Response

We disagree. When a beneficiary moves outside the United States, we need more than residence
and citizenship information. The SSA-21 (Supplement to Claim of Person Outside the United
States) was designed to collect all of this information. While consideration was given to making
this form available over the Internet, the consensus was that this was not a self-help form and
that an interview with an SSA representative should be conducted.

Recommendation 6

SSA should use existing software applications to help ensure that payments to non-resident
beneficiaries are suspended if required documentation is not received in accordance with SSA
policy.

Response

We agree. This recommendation is similar to number 3, and as stated above, we agree that we
should utilize all available resources to properly suspend non-resident beneficiaries for lack of
documentation.

Recommendation 7

SSA should consider software changes that would prevent updates to alien information on the
MBR if the update conflicts with other MBR data fields or if key data fields, like country of
citizenship, are blank or shown as unknown.




                                              F-4
Response

We agree. We will consider the feasibility of making these software changes contingent upon
the availability of funding through the Agency’s Information Technology resources prioritization
process.




                                            F-5
                                                                        Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kitt Winter, Director, Data Analysis and Technical Audit Division
   (410) 965-9702

   Patrick Kennedy, Audit Manager, Mainframe Controls and Advanced Techniques
   (410) 965-9724

Acknowledgments

In addition to those named above:

   Thomas P. Tennant, Auditor-in-Charge
   Gregory P. Hungerman, Auditor
   Harold W. Hunter, Auditor
   Greg P. Thompson, Auditor
   Dave Wolfgang, IT Specialist
   Charles Zaepfel, IT Specialist
   Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-14-03-23005.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
  House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                       Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.
                                       Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                 Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
